No: ___________

In the

Supreme Court of the United States
_________________
JAMES AYERS
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
______________________________________________________________________________
APPENDIX
______________________________________________________________________________

MICHAEL L. WEINMAN
WEINMAN AND ASSOCIATES
101 N. Highland Ave,
P.O. Box 266
Jackson, TN, 38302
(731) 423-5565
Counsel for Petitioner

Case: 20-5222

Document: 24-2

Filed: 01/20/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 20-5222

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JAMES AYERS,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)

Jan 20, 2021
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
TENNESSEE

ORDER

Before: COOK, WHITE, and MURPHY, Circuit Judges.

James Ayers, a federal prisoner proceeding through counsel, appeals the judgment of the
district court sentencing him under the Armed Career Criminal Act (“ACCA”) to a mandatory
minimum term of imprisonment of 180 months. See 18 U.S.C. § 924(e)(1). The parties have
waived oral argument, and this panel unanimously agrees that oral argument is not needed. See
Fed. R. App. P. 34(a).
In February 2020, without a written plea agreement, Ayers pleaded guilty to a three-count
information charging him with being a felon in possession of a firearm, in violation of
18 U.S.C. §§ 922(g)(1) and 924(e). The probation office prepared a presentence report, which
recommended that Ayers be sentenced as an armed career criminal based on the following three
prior convictions: (1) a 1985 Tennessee conviction for robbery with a deadly weapon; (2) a 1992
Tennessee conviction for aggravated assault; and (3) a 2001 federal conviction for possession with
intent to distribute heroin. Ayers objected to the use of the aggravated-assault conviction as an
ACCA predicate. He argued that, because the aggravated-assault statute under which he was

APPENDIX A

Case: 20-5222

Document: 24-2

Filed: 01/20/2021

Page: 2

No. 20-5222
-2convicted could be violated by reckless conduct and the government failed to present evidence to
show that the conduct underlying his aggravated-assault conviction could not have been committed
recklessly, the conviction could not be used as a predicate offense to support an ACCA sentence.
Ayers acknowledged, however, that his argument was likely foreclosed by Sixth Circuit precedent,
namely United States v. Verwiebe, 874 F.3d 258, 264 (6th Cir. 2017), which held that offenses that
require only recklessness can qualify as crimes of violence under the use-of-force clause of the
sentencing guidelines’ career-offender provision, USSG § 4B1.2(a). The district court overruled
Ayers’s objection and sentenced him to the mandatory minimum term of 180 months’
imprisonment.
Ayers now appeals. He argues that his aggravated-assault conviction should not be
considered a predicate offense for purposes of the ACCA but acknowledges that we are likely
bound by our decision in Verwiebe. He contends that Verwiebe was wrongly decided and that
therefore his aggravated-assault conviction cannot be used as an ACCA predicate because the
government failed to produce evidence establishing that his conviction was not for reckless
conduct.
We review de novo whether a prior conviction is a violent felony under the ACCA. United
States v. Mitchell, 743 F.3d 1054, 1058 (6th Cir. 2014). A defendant qualifies as an armed career
criminal if he has three or more prior convictions for a serious drug offense or a violent felony. 18
U.S.C. § 924(e)(1). The ACCA defines a “violent felony” as “any crime punishable by
imprisonment for a term exceeding one year” that “has as an element the use, attempted use, or
threatened use of physical force against the person of another,” or is arson, burglary, extortion, or
involves the use of explosives. 18 U.S.C. § 924(e)(2)(B). In order for an offense to qualify as a
violent felony under the use-of-force clause, it must involve “violent force—that is, force capable
of causing physical pain or injury to another person.” Johnson v. United States, 559 U.S. 133, 140
(2010).
To determine if a prior conviction qualifies as a violent felony, we employ a categorical
approach, “focus[ing] on the statutory definition of the offense, rather than the manner in which
the offender may have violated the statute in a particular circumstance.” Lowe v. United States,

APPENDIX A

Case: 20-5222

Document: 24-2

Filed: 01/20/2021

Page: 3

No. 20-5222
-3920 F.3d 414, 416 (6th Cir. 2019) (alteration in original) (quoting United States v. Gooch, 850
F.3d 285, 290 (6th Cir. 2017)). When an offense contains alternative elements, it is divisible, and
a “modified categorical approach” may be used to ascertain which version of a particular crime a
defendant committed. Descamps v. United States, 570 U.S. 254, 261-62, (2013). Under the
modified categorical approach, courts review “a limited class of documents (for example, the
indictment, jury instructions, or plea agreement and colloquy) to determine what crime, with what
elements, a defendant was convicted of.” Mathis v. United States, 136 S. Ct. 2243, 2249 (2016).
Tennessee’s aggravated-assault statute is divisible; therefore, the modified categorical approach
applies. See Davis v. United States, 900 F.3d 733, 736-37 (6th Cir. 2018); Braden v. United States,
817 F.3d 926, 933 (6th Cir. 2016); United States v. Cooper, 739 F.3d 873, 880 n.2 (6th Cir. 2014).
At the time of Ayers’s aggravated-assault conviction, subsection (a)(1) of Tennessee’s
aggravated-assault statute “require[d] that the offender commit a regular assault under [Tenn. Code
Ann.] § 39-13-101 and, additionally, either cause serious bodily injury or use or display a deadly
weapon.” Davis, 900 F.3d at 736. Ayers does not appear to dispute that he was convicted of
subsection (a)(1) of Tennessee’s aggravated-assault statute. Rather, he argues only that “[i]f the
Supreme Court ultimately determines that convictions arising out of recklessly committed acts can
count as ACCA predicate offenses then it is undisputed that the Defendant qualifies for enhanced
sentencing under the ACCA and this appeal must fail.” Appellant’s Br. at 7; see also id. at 12
(“[I]f the Supreme Court ultimately determines that recklessly committed offenses can’t stand as
ACCA predicates then Defendant does not qualify for the enhancement under the divisible
statute.”). Because subsection (a)(1) of the aggravated-assault statute is the only subsection that
has a mens rea of recklessness, Ayers appears to agree with the government that he was convicted
under subsection (a)(1). Nor does Ayers respond to the government’s argument that the plea
transcript establishes that he was convicted under subsection (a)(1).
At the time Ayers committed the aggravated assault, Tennessee law proscribed multiple
types of regular assault—the commission of which was an element of the aggravated-assault
variant of which Ayers was convicted. See Tenn. Code Ann. §§ 39-13-101(a), 39-13-102(a)(1)
(1990). Because one of those types of regular assault prohibited even reckless conduct, see Tenn.

APPENDIX A

Case: 20-5222

Document: 24-2

Filed: 01/20/2021

Page: 4

No. 20-5222
-4Code. Ann. 39-13-101(a)(1) (1990), Ayers argues that his aggravated-assault conviction cannot be
considered a violent felony for purposes of the ACCA. But as Ayers acknowledges, Verwiebe
established that convictions based on reckless conduct can serve as ACCA predicates. And we
have specifically held that “reckless aggravated assault in Tennessee is a crime of violence under
the use-of-force clause.” Davis, 900 F.3d at 736; see also Dillard v. United States, 768 F. App’x
480, 486-87 (6th Cir. 2019). Although Ayers concedes that his claim cannot succeed under current
circuit precedent, he argues that Verwiebe was wrongly decided and states that he wishes to
preserve his claim in the event the Supreme Court overrules Verwiebe in a case currently before
it—Borden v. United States, No. 19-5410. But Verwiebe and its progeny are the law of this circuit,
and one panel of this court cannot overrule the decision of another panel. See United States v.
Camp, 903 F.3d 594, 597 (6th Cir. 2018).
Accordingly, we AFFIRM the district court’s judgment.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX A

Case 1:17-cr-10004-STA Document 627 Filed 02/24/20 Page 1 of 7
AO 245B (Rev. 09/19)

PageID 3203

Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
Western District
of of
Tennessee
__________
District
__________
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA
v.
JAMES AYERS

THE DEFENDANT:
✔ pleaded guilty to count(s)
G

JUDGMENT IN A CRIMINAL CASE
Case Number: 1:17-cr-10004-STA-2
USM Number: 11809-076
Michael Weinman
Defendant’s Attorney

1, 2, 3, of an Information

G pleaded nolo contendere to count(s)
which was accepted by the court.

G was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense

Offense Ended

18 U.S.C.§ 922(g)

Felon in Possession of a Firearm

12/27/2016

Count

1-3

and 924(a)(e)

10

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

of this judgment. The sentence is imposed pursuant to

G The defendant has been found not guilty on count(s)
G Count(s)

G is

G are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

2/21/2020
Date of Imposition of Judgment

s/S. Thomas Anderson
Signature of Judge

S Thomas Anderson, Chief U.S. District Court Judge
Name and Title of Judge

2/24/2020
Date

APPENDIX B

Case 1:17-cr-10004-STA Document 627 Filed 02/24/20 Page 2 of 7

PageID 3204

AO 245B (Rev. 09/19) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

DEFENDANT: JAMES AYERS
CASE NUMBER: 1:17-cr-10004-STA-2

3

of

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a
total term of:

180 months custody of BOP

✔ The court makes the following recommendations to the Bureau of Prisons:
G
Defendant be housed at FCI Memphis in Memphis, TN.
Defendant participate in the RDAP drug treatment program.

✔ The defendant is remanded to the custody of the United States Marshal.
G

G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

.

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before 2 p.m. on

.

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

APPENDIX B

10

Case 1:17-cr-10004-STA Document 627 Filed 02/24/20 Page 3 of 7
AO 245B (Rev. 09/19)

PageID 3205

Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

4

of

10

DEFENDANT: JAMES AYERS
CASE NUMBER: 1:17-cr-10004-STA-2

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:

3 years supervised release

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.

7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
G The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)
You
must
make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
G
restitution. (check if applicable)
✔ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
G
G You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
G You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

APPENDIX B

Case 1:17-cr-10004-STA Document 627 Filed 02/24/20 Page 4 of 7
AO 245B (Rev. 09/19)

PageID 3206

Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

5

of

10

DEFENDANT: JAMES AYERS
CASE NUMBER: 1:17-cr-10004-STA-2

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

APPENDIX B

Case 1:17-cr-10004-STA
Document 627 Filed 02/24/20 Page 5 of 7
Judgment in a Criminal Case

AO 245B (Rev. 09/19)

PageID 3207

Sheet 3C — Supervised Release
Judgment—Page

DEFENDANT: JAMES AYERS
CASE NUMBER: 1:17-cr-10004-STA-2

ADDITIONAL STANDARD CONDITIONS OF SUPERVISION
The defendant shall participate in drug testing and treatment as directed by the
probation officer.
The defendant shall cooperate in the collection of DNA.
The defendant shall be prohibited from the possession of firearms or other
dangerous weapons.
The defendant shall submit his or her person, property, house, residence, vehicle,
papers, computers (as defined in 18 U.S.C. § 1030(e)(1)), other electronic
communication or data storage or media, or office to a search conducted by a
United States Probation Officer. Failure to submit to a search may be grounds for
revocation of release. The defendant shall warn any other occupants that the
premises may be subject to searches pursuant to this condition. An officer may
conduct a search pursuant to this condition only when reasonable suspicion exists
that the defendant has violated a condition of his supervision and that the areas to
be searched contain evidence of this violation. Any search must be conducted at a
reasonable time and in a reasonable manner.

APPENDIX B

6

of

10

Case 1:17-cr-10004-STA Document 627 Filed 02/24/20 Page 6 of 7

AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties

PageID 3208
7

Judgment — Page

DEFENDANT: JAMES AYERS
CASE NUMBER: 1:17-cr-10004-STA-2

of

10

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

5HVWLWXWLRQ
$

Assessment
$ 100.00

)LQH
$

G The determination of restitution is deferred until

$

-97$$VVHVVPHQW

$9$$$VVHVVPHQW
$

. An Amended Judgment in a Criminal Case (AO 245C) will be

entered after such determination.

G The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

TOTALS

Total Loss***

0.00

$

$

Restitution Ordered

Priority or Percentage

0.00

G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

G the interest requirement is waived for the
G the interest requirement for the

G fine

G fine

G restitution.

G restitution is modified as follows:

* Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018, Pub. L. No. 115-299.
** Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
*** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on
or after September 13, 1994, but before April 23, 1996.

APPENDIX B

Case 1:17-cr-10004-STA
Document 627 Filed 02/24/20 Page 7 of 7
Judgment in a Criminal Case

AO 245B (Rev. 09/19)

PageID 3209

Sheet 6 — Schedule of Payments
Judgment — Page

DEFENDANT: JAMES AYERS
CASE NUMBER: 1:17-cr-10004-STA-2

9

of

10

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

G Lump sum payment of $
G
G

not later than
in accordance with

due immediately, balance due
, or

G C,

G D,

G E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

G F below; or
G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

G Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G Joint and Several
Case Number
Defendant and Co-Defendant Names
(including defendant number)

Total Amount

Joint and Several
Amount

Corresponding Payee,
if appropriate

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):
✔ The defendant shall forfeit the defendant’s interest in the following property to the United States:
G
Weapons and ammunition seized by the Govt.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA assessment,
(5) fine principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and (10) costs, including cost of
prosecution and court costs.

APPENDIX B

